              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
University of California's Costs
Claimed and Related Internal
Controls for Operation of Los Alamos
National Laboratory




DOE/IG-0596                                 April 2003
UNIVERSITY OF CALIFORNIA'S COSTS CLAIMED AND RELATED
INTERNAL CONTROLS FOR OPERATION OF LOS ALAMOS
NATIONAL LABORATORY

TABLE OF
CONTENTS



                Los Alamos Costs and Controls

                Background ................................................................................ 1

                Results of Audit .......................................................................... 1

                Recommendations and Comments .......................................... 11


                Appendices

                1. Objective, Scope, and Methodology ................................... 14

                2. Prior Audit Reports .............................................................. 16

                3. Management Comments ..................................................... 17
LOS ALAMOS COSTS AND CONTROLS


BACKGROUND         The University of California (University) has operated the Los Alamos
                   National Laboratory (Laboratory) under contract with the Department
                   of Energy (Department) and its predecessor agencies since 1943. The
                   Laboratory's financial accounts are integrated with the Department's,
                   and the results of financial transactions are reported monthly according
                   to a uniform set of accounts. Now part of the Department's National
                   Nuclear Security Administration (NNSA), the Laboratory has critical
                   national security responsibilities, including helping to ensure the safety,
                   security, and reliability of the nation's nuclear weapons stockpile.

                   During Fiscal Years 2000 through 2002, the University incurred
                   $5.2 billion in costs under its contract (W-7405-ENG-36) with the
                   Department in over 6 million separate transactions. These expenditures
                   were made on the Government's behalf at the Laboratory to carry out its
                   missions and functions. The contract requires the University to comply
                   with the Federal Acquisition Regulation (FAR) for allowable cost
                   determinations. We evaluated costs incurred under the contract for
                   allowability using a combination of statistical and non-statistical
                   methodologies.


RESULTS OF AUDIT

                   Our audit disclosed that costs claimed by the University for Fiscal
Questioned Costs
                   Years 2000 through 2002 were generally allowable. However, we
                   question the allowability of $14.6 million claimed during that period as
                   shown in the table below.

                                                     Total Costs    Costs Questioned
                   Working Meals                    $ 4,179,584          $ 3,660,383
                   Travel Claims                    101,725,002            7,383,069
                   Performance Awards                 2,190,299               53,247
                   Audit Function                     3,503,175            3,503,175
                   Totals                         $ 111,598,060         $ 14,599,874


                   A discussion of each category follows.




Page 1                                                                      Results of Audit
                                          Working Meals

                                     Total                              Projected
                                                                       Questioned
                           Costs              Transactions1                 Costs
                      $4,179,584                   13,534              $3,660,383

         We question as unreasonable $3,660,383 that the University charged
         the contract for meals and entertainment. The majority of the
         questioned meals were provided at the Laboratory by the operator of the
         cafeteria and included recurring costs for coffee supplies, breakfast
         items, and other meals. The remainder was for meals at restaurants in
         Los Alamos, Santa Fe, and Albuquerque. In most cases, the meals were
         provided to Laboratory employees and guests. In some instances these
         meals were also provided to Department employees. We estimated the
         questioned amount based on the results of a random sample projection,
         using statistical sampling software provided by the Defense Contract
         Audit Agency (DCAA). We did not question meals that were related to
         bona fide conferences or professional meetings, or those that were paid
         for through the employee morale fund.

         The FAR does not specifically address working meals, but does
         contemplate that such costs could be allowed if associated with certain
         meetings, conferences, and symposia. All costs, however, must be
         consistent with prudent business practices. In our judgment, the
         number, frequency, and apparent routine nature of most meals provided
         indicates that the University was not exercising care to distinguish
         situations where working meals truly are in the Government's best
         interests. Other sources of information, while not binding on this
         contract, indicate that these types of costs are unallowable on
         Government contracts. The DCAA Contract Audit Manual requires
         meals to be an integral part of meetings to be allowable. In an October
         2002 Advisory Opinion, the Chief Counsel of the Department of
         Energy's Chicago Operations Office concluded that, generally, meals
         for contractor employees are unallowable because the cost of meals is
         considered a personal expense of the individual.2 In addition, according
         to the Defense Acquisition Homepage, meals for contractors are


         1
          Each of these transactions potentially included meals for multiple individuals.
         2
          While the opinion did outline some exceptions to the general rule, it emphasized that,
         absent a specific contract provision or advance agreement regarding the allowability
         of the cost, each cost should be evaluated on a case-by-case basis against
         considerations including reasonableness of the cost, integrality to the associated
         business function, and other FAR and DEAR provisions.


Page 2
                                                                           Results of Audit
         generally unallowable, and for a business meal to be allowable, it must
         be an inseparable part of a meeting agenda. It also states that incidental
         business discussions during a meal do not make the meal costs
         allowable.

         The Laboratory has an internally generated "Cost Allowability Guide"
         that establishes certain criteria for the allowability of meal costs. In
         practice, the working meals policy has been interpreted by the
         University as allowing meals in association with an extremely broad
         range of activities. In response to our concerns that this policy was
         unreasonable, the University provided a written justification. The
         University's primary position was that the FAR, the contract, and the
         Department of Energy Acquisition Regulations (DEAR) did not
         specifically address the allowability of meals. However, we confirmed
         that the FAR is clear that a contractor is not allowed the presumption of
         allowability when a cost is not specifically addressed in the FAR.

         In addition, the University believes that its policy describes when a
         meal is a "reasonable business expense." However, we noted that meals
         paid for with University funds must be approved two supervisory grade
         levels higher than those paid for with Government funds. Thus, the
         University of California has a more restrictive policy on meal expenses
         than the policy it has implemented at Los Alamos, the latter being
         reimbursed through appropriated funds. We could not reconcile this
         inconsistency. Lastly, the University established these guidelines
         without consulting or obtaining approval from the contracting officer
         because the policy was considered "an internally generated guidance
         document."


                                      Travel Claims

                                                    Projected
                                                   Questioned
                                Total Costs             Costs
                              $101,725,002         $7,383,069

         We question $7.4 million charged to the contract by the University for
         travel costs that were not in compliance with Federal Travel
         Regulations (FTR). In November 1999, a modification to the contract
         required the University to follow the FTR for travel reimbursements for
         its employees. The FTR limits reimbursements for lodging to rates




Page 3                                                           Results of Audit
         established by the General Services Administration (GSA)3 and requires
         receipts for all costs over $75. However, we found that travelers were
         reimbursed for lodging that exceeded established GSA rates, conference
         fees without providing a receipt, and various other costs not in
         accordance with the FTR.

         To determine the questioned amounts, we:

             • Randomly selected 386 travel transactions with a value of
               $846,800;

             • Identified the associated travel claim and evaluated the claim for
               compliance with the FTR; and,

             • Projected costs, not in compliance with the FTR, using statistical
               sampling software provided by the DCAA.


         In our sample, we found 109 travel claims with $53,868 costs
         questioned:

                          Questioned Questioned
         Cost Type       Transactions     Costs                              Rationale
         Conferences           40              $37,073       Costs were not supported by a receipt
         Lodging               54                6,670       Exceeded GSA rates without justification
         Other Errors          33               10,125       Various errors
         Totals               109*             $53,868
                 * This column does not total 109 because some transactions contained multiple errors.


         Subsequent to our review, we were informed that the Laboratory was
         able to locate additional supporting documentation, which was not in
         the payment files at the time of our review. This information should be
         utilized by the Department in determining allowability of specific items
         questioned in this report. However, the delay in providing the
         information and the fact that the information was not in the payment
         files calls into question the scrutiny of travel claims by the Laboratory
         prior to payment.


         3
          According to the FTR, reimbursement for actual expenses is warranted when: lodging
         or meals are procured at a prearranged place; costs have escalated because of a special
         event; or, lodging and meals expenses within prescribed allowances cannot be
         obtained nearby and costs to commute from a nearby location consumes savings that
         would be achieved.



Page 4                                                                                Results of Audit
                                      Performance Awards
                                  Total Costs       Costs Questioned
                                  $2,190,229                $53,247

         We question $53,247 in cash awards charged to the contract. The
         University funds the Contract Worker Award Program to recognize the
         efforts of subcontractor employees. This award program was not
         specifically allowed by the contract, but the University received
         Departmental approval in 1996 to fund these awards. The cost of this
         program was limited by the University to 0.1 percent of the salary base
         for the subcontractors. These limits were $62,210 in 2000, $67,753 in
         2001, and $64,429 in 2002.4 However, we found that the University
         exceeded these limits by $50,247.

         Also, the contract provided for costs related to employee morale
         activities to fund a variety of programs to enhance employee morale
         with an overall limitation of $16 per employee. In addition to the
         contract, the University imposed additional limitations that specifically
         prohibited use of the fund for individual cash awards. However, we
         found that the University charged $3,000 to this fund in FY 2002 for
         individual cash awards for four employees.


                                          Audit Function
                                    Total Costs       Cost Questioned
                                    $3,503,175             $3,503,175

         We question as unreasonable $3,503,175 charged to the contract by the
         University for costs of operating an audit function that did not meet the
         requirements of the Department's Cooperative Audit Strategy or
         standards established by the Institute of Internal Auditors. Specifically,
         the audit function was not organizationally independent; did not
         adequately plan its audit work; and did not conduct timely follow-up
         reviews. These shortcomings are discussed in more detail in the
         Related Controls section of this report.




         4
          These limits were imposed by the University on a "cap year" that ran
         from April 1st to March 31st in any given year.
Page 5
                                                                          Results of Audit
 Related Controls
                    As part of our review, we identified internal control weaknesses that
                    contributed to an environment where the questioned costs identified in
                    this report and potentially other questionable costs could be incurred
                    and claimed. A discussion of each identified control weakness follows.

                                         Laboratory Audit Function

                    An effective internal audit function is crucial to effective program
                    management. The University's contract requires the Laboratory to
                    establish an audit function to conduct audits at the Laboratory that are
                    acceptable to the Department, including an annual allowable cost audit
                    and subcontract audits as needed. It also requires the University to
                    make the results of these reviews available to the contracting officer.
                    The Cooperative Audit Strategy, as set forth in the Department's
                    Acquisition Guide, provides the criteria used to determine whether a
                    contractor's audit function is acceptable. Among other requirements,
                    the acquisition guide requires the audit functions to be organizationally
                    independent and prepare a satisfactory audit plan. In addition, the
                    Institute of Internal Auditors' standards recommend establishment of an
                    audit follow-up process to monitor and ensure that management actions
                    have been effectively implemented or that senior management has
                    accepted the risk of not taking action. In our judgment, the Los Alamos
                    audit function, which includes internal and subcontract audit functions,
                    did not meet these requirements.

                    Independence

                    The Laboratory's audit function had reporting relationships with various
                    levels of University and Laboratory management. However, we
                    determined that the manager responsible for the chief auditor's
                    performance appraisals and annual salary increases was also
                    responsible for areas that were the subject of both internal and
                    subcontractor audits, including the procurement, property, and
                    accounting functions. In our opinion, this relationship led to an
                    impairment of independence.

                    An apparent lack of independence was also evident in the Laboratory's
                    reporting of audit findings to the Department. When the audit function
                    issues an audit report, it also issues a Management Action Plan (MAP)
                    and enters required management actions into the Laboratory's Issues
                    Tracking system (I-TRACK). We compared the findings in the audit
                    reports to the related MAP and I-TRACK actions and found that the



Page 6                                                                     Results of Audit
         MAP and I-TRACK contained significantly more detail. However,
         only the audit reports are issued to the Department, while the MAP and
         I-TRACK are treated as internal documents. For example, we noted
         that an internal audit conducted in 2000 identified potentially
         unallowable costs listed at $117,247 in the MAP. However, the
         associated audit report issued to the Department did not include specific
         information about these costs. Although the issue was identified in the
         report, the value of the questioned costs was not. At the time of our
         review, the costs had not been recovered. It should also be noted that
         the Office of Inspector General encountered reluctance on the part of
         the audit function to share MAP and I-TRACK documents with our
         audit team.

         Finally, we found supervisory documentation warning the audit
         function against throwing "grenades" and encouraging the function to
         "work with management." Such admonishments could have
         encouraged a reluctance to report audit findings to the Department.

         Planning and Performance of Audits

         We also found that the audit function did not adequately plan internal or
         subcontract work. During our review period, the internal audit function
         typically only completed one-third of the audits planned, while the
         subcontract audit function did not prepare audit plans.

         The internal audit function planned up to 13 audits per year for a total
         of 32 audits planned from FY 2000 to FY 2002, but during that same
         time, completed only 11 audits (34 percent). According to the
         University, the internal audit group is expected to complete between 70
         and 85 percent of its audit plans. This lack of production by the internal
         audit function may be attributed to spending 15 percent of available
         time on advisory services5 and 31 percent on audits that were started but
         not completed. While the internal audit function did not follow its
         plans, the subcontract audit function did not prepare an audit plan at all
         for FYs 2000 through 2002.

         In addition to overall planning, we found the allowable cost audit for
         FY 2000, which was specifically required by the contract, was not
         adequately planned. The audit did not cover the full scope of
         operations and relied on judgmental sampling techniques from which
         results could not be projected. In addition, the audit did not reconcile
         the costs shown on the Statement of Cost Incurred and Claimed6 to
         5
           Advisory services addresses management's concerns in areas such as human
         resources, security, and various consultations. The results of these services are not
         distributed to the Department.
         6
           The annual statement the University submits to the Department as an accountant of
         costs incurred for the year.
Page 7
                                                                           Results of Audit
         either the Laboratory's Letter-of-Credit or its Financial Management
         Information System (FMIS)7.

         Subcontract Audits

         The Laboratory had responsibility for auditing selected subcontracts
         under its purview and had completed 70 audits during the last three
         fiscal years. However, at the time of our review, the Laboratory
         provided documentation that indicated a backlog of 500 subcontract
         audits for contracts with a total value of $1.2 billion. The backlog
         included the incurred cost audits and close out audit of Johnson
         Controls Northern New Mexico (Johnson Controls) that accounted for
         over $150 million per year charged to the Department. The FY 2001
         audit of Johnson Controls began in March 2002 and is still ongoing.
         The FY 2002 incurred cost and closeout audits of Johnson Controls
         have not been started. After we completed our fieldwork, the
         Laboratory provided a revised list for closeout audits that indicated a
         backlog of 77 audits with contract values of $1.1 billion. As indicated
         above, the Laboratory has not developed a plan to address the backlog
         of required audits.

         By the terms of its contract, the Laboratory was required to provide for
         the timely involvement of the Department's contracting officer in
         resolution of subcontract cost allowability. In at least one instance, the
         audit function conducted a subcontract audit that identified potential
         questioned costs of approximately $12.8 million, but a report was never
         provided to the contracting officer.

         Follow-up

         The audit function did not follow-up on issues identified in its audit
         reports in a timely fashion. We found several instances where there
         was a significant delay between the time management closed an audit
         finding and the time the audit function verified that appropriate action
         was taken to close the finding. In some cases this delay was 6 years or
         more. For example, the internal audit function issued two audits on the
         purchase card program, resulting in 10 findings requiring management
         action that closely mirrored recent findings of an external review team.
         Management closed all of the audit findings issued between December
         1996 and December 2000, but the audit function did not indicate
         verification of these actions until February 2003 and had not conducted
         follow-up reviews. The audit function also had a considerable backlog

         7
         These reconciliations would have shown the auditors that all costs charged by the
         University were subject to audit.
Page 8                                                                   Results of Audit
         of open actions. We noted that there were at least 260 open actions in
         I-TRACK at the end of FY 2002 that required management closure or
         audit function verification.

         Recent Actions

         In response to a draft of this report, the University informed us of
         several actions they had recently taken or were planning to take to
         address weaknesses in the audit function at the Laboratory.
         Specifically, the University reported that it had: revised the reporting
         structure; made staffing changes; started assessing its practices to
         enhance productivity and timeliness; engaged in a program to catch-up
         on delinquent audit follow-up activities; and, begun development of
         performance measures. In addition, the University stated that it was
         planning to create a Laboratory audit committee adhering to the
         University of California model for campus audit committees. If
         successfully implemented, these initiatives should address the internal
         control concerns related to the Laboratory audit function identified in
         this report.


                            Financial System Reconciliation

         The University has established over 60 feeder systems at the Laboratory
         that provide cost information to the Financial Management Information
         System (FMIS) and ultimately to the annual statement the University
         submits to the Department as an account of costs incurred for the year.
         However, the University has not established a process to periodically
         reconcile costs generated by these systems to FMIS. We attempted to
         reconcile the costs generated by both the payroll system and the travel
         disbursement systems. We were able to reconcile the payroll system to
         within $1.4 million of payroll costs in FMIS (0.08 percent of total
         payroll costs) and the travel disbursements system to within $2.3
         million of costs in FMIS (2.31 percent of total travel costs). University
         officials told us that a complete reconciliation could be completed, but
         only with great difficulty. As a result of these inconsistencies, costs
         claimed by the University could be misstated and the universe of costs
         subjected to audit could be incomplete.


                        Payroll and Travel Approval Processes

         The University established controls over travel reimbursements and
         time and attendance at the Laboratory that allowed payments to be
         made based upon electronic signatures of administrative staff or, in

Page 9                                                          Results of Audit
          some cases, subcontractor support staff. The written policy for
          approvals stated that travel claims and payroll time sheets required
          supervisory approval -- Deputy Group Leader and above -- using
          either online electronic signature or hardcopy signature prior to paying
          travel claims and salaries. In cases where supervisors manually
          approved these payments, the University allowed them to delegate
          electronic approval of the costs to administrative staff. We found that
          supervisors made only 15 of the 120 electronic approvals that we
          checked. Although in some instances we were able to verify that
          hardcopy signatures did exist, our primary concern was that the
          Business Operations Division made payments based exclusively on the
          electronic signatures. Thus, these payments were made without any
          process, test-basis or otherwise, for verification of supervisory
          approvals.


                       Financial Management Personnel Turnover

          During our audit we noted that there had been substantial turnover in
          Laboratory personnel responsible for financial management activities.
          As of March 2003, 43 percent of the managers (Team Leader and
          above) in the Business Operations Division had less than one year of
          experience in their current positions at the Laboratory. In particular,
          Accounting, a sub-component of this division, had been severely
          affected. Five of seven managers (71 percent) had less than one year of
          experience in their current positions at the Laboratory. While we
          recognize the challenge of retaining qualified personnel, the fact is that
          excessive turnover left a void in the Accounting Department's ability to
          fully understand and execute the interfaces and capabilities of the
          Laboratory's financial management systems. To clarify, we did not
          review, nor are we questioning, the professional credentials and core
          qualifications of the financial management personnel. Rather, our
          concern is position-specific experiences of personnel in the Business
          Operations Division.


                         Financial System Review and Approval

          We also found that the University did not obtain Departmental approval
          for its existing financial system or approval for a new financial system
          currently under development. These systems typically consist of the
          organization, processes, and computer applications for accounting,
          purchasing, and property management. The contract requires
          Departmental review and approval of the financial systems, the


Page 10                                                          Results of Audit
                  purchasing systems, and the property systems. The contract also
                  requires Departmental approval of plans for new systems or major
                  enhancements to existing systems. We found that both the property and
                  purchasing systems were subject to review and approved by the
                  Department on a regular basis. In addition, all the systems were subject
                  to an annual self-assessment by the University and a Business
                  Management Oversight Review by the Department. However, we
                  found no evidence that the Department approved the Laboratory's
                  financial systems. Furthermore, we noted that the University initiated
                  an overhaul of its financial system that is expected to take 5 years at a
                  cost of $70 million. As with the existing system, the new initiative had
                  not been approved by the Department.

Diminished        As a result of the control weaknesses identified in this report, the
Assurance         Department has, in our judgment, less than adequate assurance that
                  costs claimed by the University for operation of the Laboratory are
                  allowable under the contract. Absent a strong control structure, a
                  definitive assessment of allowability of costs cannot be made. Based
                  on the record we developed, in our judgment, business operations at the
                  Laboratory have not been given adequate emphasis. As a result, the
                  caliber of business operations is simply inadequate given the nature and
                  size of operations at Los Alamos and the requirements of the
                  University's contract with the Department of Energy.


RECOMMENDATIONS   To address the issues discussed above, we recommend that the
                  Administrator of the National Nuclear Security Administration:

                  1. Direct that a determination of allowability be made on the
                     $14,599,874 in questioned costs identified in this report, in
                     accordance with the provisions of contract clause I.100 for costs
                     determined to be unallowable, and recover costs and penalties as
                     appropriate.

                  2. Require the University to either develop and implement a policy for
                     meals that makes them expressly unallowable, or establish a
                     contractually binding arrangement with the Department that
                     recognizes meal costs allowability in very narrowly defined
                     scenarios consistent with current regulatory guidance.

                  3. Require the University to:

                     a. Obtain prior approval and provide adequate justification for
                        exceeding lodging and meal rates established by the GSA and
                        require travelers to provide receipts for all costs over $75 prior
                        to providing final reimbursement;
Page 11
                                                    Recommendations and Comments
                         b. Amend current approval policies to allow only Group Leaders
                            or above to approve payroll and travel costs, and eliminate from
                            all financial systems the capability to delegate electronic
                            approvals below the Group Leader Level; and,
                         c. Conduct yearend reconciliations of costs from feeder systems to
                            the FMIS.
                      4. Require the University to re-align its audit function to:

                         a. Report directly to the University of California or be overseen by
                            an audit committee consisting of members independent of
                            Laboratory management;
                         b. Enhance its audit planning process to reconcile with its existing
                            resources and address the backlog of subcontract audits; and,
                         c. Establish a follow-up process to ensure that management actions
                            have been effectively implemented in a timely fashion.
                      5. Take action to review and approve the Laboratory's financial
                         systems.
                      6. Working in conjunction with the Chief Financial Officer and the
                         Chief Information Officer, establish the University's project to
                         overhaul the financial systems as a line item project.

MANAGEMENT REACTION   Management generally agreed with the recommendations and indicated
                      that corrective actions had been taken or were planned. Management's
                      comments are included as Appendix 3. Management also provided
                      technical comments from NNSA and the Laboratory. These comments
                      are addressed in the report as appropriate. In its official comments,
                      management specifically recognized actions already taken by the
                      University and new Laboratory management to strengthen the
                      Laboratory's control environment and business practices as a result of
                      this and prior reviews. They applauded the University's commitment to
                      the formal improvement plan that had been instituted, specifically citing
                      among other initiatives, the University Auditor assuming management
                      of the Laboratory's audit function.

                      NNSA's plan to monitor corrective actions established how each
                      recommendation would be managed. In this plan, with one exception,
                      NNSA agreed to take the recommended actions or review the need to
                      take action on each of our recommendations. The one exception related
                      to our recommendation to require the University to obtain prior
                      approval and provide adequate justification for exceeding lodging and
                      meal rates established by the GSA. NNSA asserted that systems and
                      documentation were in place.

Page 12                                                 Recommendations and Comments
                   Subsequent to our review, we were informed that supporting
                   documentation related to some of the questioned costs existed that was
                   not available during our review.


AUDITOR COMMENTS   Management's comments were generally responsive to our
                   recommendations.

                   With respect to our recommendation on approval and justification for
                   exceeding lodging and meal rates established by the GSA, we believe
                   that adequate systems and documentation were not in place. For the
                   costs questioned in our sample, documentation of rationale for
                   exceeding appropriate limits was not included in the travel claim and
                   was not provided from other sources during our review. We did not
                   question costs in excess of the limits that included a justification or
                   explanation consistent with exceptions provided for in the FTR. We
                   recognize that there are situations where it is acceptable to exceed the
                   GSA limits but believe that the rationale should be documented in the
                   travel claim.

                   While subsequently located documentation related to the costs
                   questioned in this report can be utilized by the Department in
                   determining allowability of specific items, it should be noted that the
                   lack of availability of required documentation at the time of the review
                   indicated a breakdown in internal controls that allowed the payment of
                   these questioned costs without the appropriate supporting
                   documentation. At the time of our review the required receipts or
                   justifications for the costs we questioned were not included in the
                   payment file, nor was the Laboratory able to produce them from other
                   sources during the 2 months of our review. While these costs may
                   ultimately be deemed allowable, the underlying control problems need
                   to be addressed.




Page 13                                             Recommendations and Comments
Appendix 1
              The objective of this audit was to determine whether the University of
OBJECTIVE
              California has established 1) an adequate system of internal controls at
              Los Alamos National Laboratory to ensure that costs reimbursed under
              the contract are allowable; 2) an internal audit function that is operating
              effectively; and, 3) critical management systems that are approved,
              maintained, and updated in accordance with contractual requirements.


SCOPE         The audit was performed from January to March 2003 at the Los
              Alamos National Laboratory in Los Alamos, New Mexico. The scope
              of the audit included a review of expenditures for Fiscal Year 2000
              through Fiscal Year 2002. Our scope excluded costs related to Johnson
              Controls of Northern New Mexico that totaled $410,784,452 during our
              review period.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Researched applicable laws, regulations, contract terms,
                     policies, procedures, and guidance relevant to the University
                     and the Laboratory;

                 •   Interviewed the Albuquerque and Los Alamos Office
                     contracting officers and other personnel responsible for
                     monitoring accounting for allowable costs;

                 •   Interviewed management and personnel from various
                     Laboratory departments;

                 •   Reviewed the University's internal controls over allowability of
                     costs;

                 •   Reconciled the University's expenses from FMIS to the amounts
                     reported on the annual Statements of Costs Incurred and
                     Claimed;

                 •   Selected random samples of Travel, Meals and Conferences,
                     Subcontracts, Payroll, and miscellaneous other expenses from
                     FMIS and tested these transactions for cost allowability. We
                     also selected and tested additional transactions on a judgmental
                     basis. We evaluated these transactions statistically and non-
                     statistically and, as appropriate, projected these results to the
                     relevant populations;



Page 14                                         Objective, Scope, and Methodology
Appendix 1 (continued)

                         •   Evaluated the Laboratory's audit function for independence,
                             planning, audit finding follow-up, and subcontract auditing;

                         •   Evaluated the University's major accounting systems for
                             contract compliance; and,

                         •   Tested the University's compliance with various contractual cost
                             ceilings.

                     The audit was performed in accordance with generally accepted
                     Government auditing standards for performance audits. It included
                     tests of internal controls and compliance with laws and regulations to
                     the extent necessary to satisfy the audit objective. Because our audit
                     was limited, it would not necessarily have disclosed all internal control
                     deficiencies that may have existed at the time of our audit. In
                     performing this audit, we assessed the accuracy of data generated from
                     the Laboratory's data-processing system.

                     An exit conference was held with NNSA and Laboratory Officials on
                     April 10, 2003.




Page 15                                               Objective, Scope, and Methodology
Appendix 2

                                           PRIOR REPORTS


   •   External Review of The Purchase Card Program, Report of Findings, Los Alamos National
       Laboratory, (Price Waterhouse Coopers Review, December 12, 2002). The Report concluded
       that internal control weaknesses existed in the program, which left the Laboratory vulnerable to
       fraud and abuse. Examples include failure to reconcile and approve monthly statements, failure
       to resolve disputed transactions, and purchase of restricted items in violation of Laboratory
       policies.

   •   Internal Audit Report, Audit of the Procurement Purchase Card Program, (IA-98-02, October
       31, 1997). According to the report, the cardholders and approving officials did not always
       follow policies, procedures, and internal controls for the Purchase Card Program. As a result,
       managers do not have reasonable assurance that policies, procedures, and controls were
       adequate to ensure purchases were properly authorized and accurately charged, received, and
       reported.

   •   Assessment of Changes to the Internal Control Structure and their Impact on the Allowability of
       Costs Claimed by and Reimbursed to Los Alamos National Laboratory Under Department of
       Energy Contract No. W-7405-ENG-3, (WR-V-02-07, September 2002). Los Alamos provided
       meals on site without documentation showing participation in the meals by individuals other
       than Laboratory employees. Los Alamos incurred the questioned costs for catered on-site
       meals because meals could be ordered from the Laboratory's cafeteria without evidence of non-
       lab participation and without an Associate Director's approval. In addition, Los Alamos
       reimbursed travel costs in excess of the Federal Travel Regulations (FTR) per diem rates. It
       was noted that employees incurred, and were reimbursed, excess lodging and M&IE costs.

   •   Special Inquiry on "Operations at Los Alamos National Laboratory," (DOE/OIG-0584, January
       28, 2003). The report noted a series of actions by Laboratory officials that had the effect of
       obscuring serious property and procurement management problems and weakened or overrode
       relevant internal controls. These actions created an atmosphere in which Los Alamos
       employees were discouraged from, or had reason to believe they were discouraged from, raising
       concerns to appropriate authorities. In short, management's actions – whether intended as a
       cover-up or not – resulted in delayed identification and resolution of the underlying property
       and procurement weaknesses and related security concerns.

   •   FY 2002 Business Management Oversight Process Report. The report summarizes the business
       and administrative performance of the University of California, Los Alamos National
       Laboratory, for FY 2002. The functional areas assessed had the following scores: personal
       property management - excellent, financial management - excellent, human resources
       management - outstanding, procurement management – outstanding, and information
       management - outstanding.




Page 16                                                                              Prior Audit Reports
Appendix 3




Page 17      Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
                                                                              IG Report No.: DOE/IG-0596

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
